                       UNITED STATES DEPARTMENT OF EDUCATION 

                                        OFFICE OF INSPECTOR GENERAL 

                                  1999 BRYAN STREET, HARWOOD CENTER, SUITE 2630 

                                             DALLAS, TEXAS 75201-6817 

                                       PHONE: (214) 880-3031 FAX: (214) 880-2492 




                                                     SEP 29 2003
Mr. Richard Skovgaard
Director/Center Manager
FlightSafety Academy
2805 Airport Drive
P.O. Box 2708
Vero Beach, FL 32961

Dear Mr. Skovgaard:

This Final Audit Report (Control Number ED-OIG/A06-C0035) presents the results of our
audit of FlightSafety Academy's compliance with Student Financial Assistance citizenship and
program eligibility requirements, under Title IV of the Higher Education Act of 1965, as
amended (HEA). Our initial objective was to determine if FlightSafety Academy (FlightSafety)
had adequate controls to ensure PLUS borrowers met the Title IV citizenship requirements.
While on site at the school, we identified concerns with the eligibility of the programs offered
and added a second objective, to determine if Title IV aid was disbursed to students enrolled in
ineligible programs.

A draft of this Office oflnspector General report was provided to FlightSafety. FlightSafety did
not agree with our finding and recommendations. We have summarized FlightSafety's
comments after the Subsequent Events section in this report. A copy of FlightSafety's response
is included as an Appendix to this report.



                                                                                                                          II
FlightSafety is a proprietary school, and its main campus is in Vero Beach, Florida. The school
received initial approval to participate in the Title IV, Student Financial Assistance programs on
November 25, 1968. The Accrediting Commission of Career Schools and Colleges of
Technology (Accrediting Agency) accredited FlightSafety. The Florida Board oflndependent
Postsecondary Vocational, Trade & Business Schools (State Agency) and the Federal Aviation
Administration (FAA) licensed the school. FlightSafety's current program participation
agreement expired on March 31, 2003. The institution applied for recertification and is currently
on a month-to-month approval, and recertification is pending.

FlightSafety offers flight-training programs that range in length from 22.5 to 533 clock hours.
Its longest clock-hour program is the Multi-Engine Private and Commercial Pilot Certification
program (533 clock hours). This program is for students who have no previous flight
experience. FlightSafety also offers a program in which a student can obtain a Multi-Engine
Commercial Pilot Certification (399 clock hours); however, the program is not in the institution's


      Our mission is to promote the efficiency, effectiveness, and integrity ofthe Department's programs and operations
ED-OIG/A06-C0035                                                                        Page 2 of8


catalog. A student must be a licensed private pilot to enroll in this program. FlightSafety offers
additional shorter programs, ranging in length from 22.5 to 115 clock hours that students can
choose to "add on" to one of the longer programs. These add-on programs include Single­
Engine and Flight Instructor Certifications. Students are allowed to choose one program or a
combination of programs, depending on the student's flight-training needs. Cost of attendance
for each of these individual programs ranges from $3,567 to $47,466. None of these programs
are approved or recognized by the Department as eligible.

From July 1, 1999, through June 30, 2002, FlightSafety disbursed over $5.6 million in Federal
Family Education Loan (FFEL) Program loans, including $5,009,713 in PLUS loans, $284,833
in Stafford Loans (Subsidized), and $371,979 in Unsubsidized Stafford Loans (Unsubsidized).
In the 2000-01 award year, FlightSafety disbursed PLUS loans to 74 students, with an average
loan disbursement of$32,658.




FlightSafety's controls were adequate to ensure PLUS loan borrowers met the Title IV
citizenship requirements. However, the school disbursed Title IV aid to students enrolled in
ineligible programs. We concluded that FlightSafety did not offer the program approved by the
Department for Title IV eligibility. The Department approved the program based on inaccurate
information that FlightSafety provided in its Application for Approval to Participate in the
Federal Student Financial Aid Programs (Application).

Specifically, FlightSafety's February 1999 application for recertification stated that it offered one
785-clock-hour Aircraft Pilot and Navigator (Professional) program. It did not offer a 785 ..
clock-hour program. Instead, it offered several shorter flight-training programs ranging from
22.5 to 533 clock hours. The Department relied on the inaccurate information when it signed the
program participation agreement and issued the school an Eligibility and Certification Approval
Report (ECAR) that listed the 785-clock-hour program as the only approved program at the
school. As a result, FlightSafety disbursed over $5.6 million in award years 1999-00 through
2001-02 to students enrolled in these unapproved and ineligible flight-training programs.

Title IV Program Eligibility Requirements

Under 34 C.F.R. Part 600, Subpart B, the Department must certify a school before the school can
participate in Title IV programs. The certification identifies the school's eligible locations and
programs. The Department extends eligibility to qualified programs identified in a school's
application. After being initially certified by the Department, schools must apply for re­
certification at intervals of no greater than six years. To apply for initial participation and re­
certification, a school must submit an Application to the Department. The school's Application
must identify the programs offered, and the school must submit proof that the programs have
been approved by the school's accrediting agency, state-licensing agency, and in the case of
flight schools, the FAA. The Department relies on the information provided by the school on its
Application and issues an ECAR listing the programs approved for Title IV eligibility.
ED-OIGIA06-C0035                                                                                     Page 3 of8


Under 34 C.F.R. § 600.40(c)(1)­

        If the Secretary designates an institution or any of its educational programs or
        locations as eligible on the basis of inaccurate information or documentation, the
        Secretary's designation is void from the date the Secretary made the designation,
        and the institution or program or location, as applicable, never qualified as
        eligible.

Further, 34 C.F.R. § 668.8 (d) provides criteria for program length. Each Title IV program must
be at least 300 clock hours in order to receive FFEL and William D. Ford Federal Direct Loan
(Direct Loan) funds. For programs that are between 300 and 600 clock hours in length, in
addition to other requirements, the institution must substantiate that the programs meet the 70
percent completion and 70 percent placement rate "by having the certified public accountant who
prepares its audit report ... report on the institution's calculation based on performing an
attestation engagement ...." 34 C.F.R. § 668.8(e)(2). The required attestation has not been
provided by FlightSafety's auditor for any of its programs.

Application Contained Inaccurate Data

FlightSafety's February 1999 Application to the Department contained inaccurate information
about the programs offered by the school. The school reported in its Application that it offered a
785-clock-hour program, and the Department approved the school's and a program's eligibility
based on the information in that application. However, none of the documentation we reviewed
during our visit to the school mentioned the 785-clock-hour program. Licensing certifications
from the school's accrediting agency, state-licensing agency, and the FAA, as well as the
school's catalog, did not mention the 785-clock-hour program.! These agencies approved the
shorter flight-training programs offered by the school. FlightSafety did not obtain approval from
the Department for the numerous shorter flight-training programs, and it did not substantiate the
required placement and completion rates.

Further, students did not sign an enrollment agreement for the 785-clock-hour program, but
students did sign enrollment agreements for each ofthe shorter flight training programs. Per
FAA requirements, students can only enroll in one program at a time and they must complete
each program before they can sign the next enrollment agreement.

FlightSafety's Administrative Manager stated that the 785-clock-hour program is not one
program, but a cluster of programs that range in length from 22.5 to 533 clock hours. Students
are permitted to enroll in one or a combination of several of these programs for a maximum of
785 clock hours. FlightSafety's Administrative Manager also stated that a new student with no
previous flight training generally enrolls in the 533-clock-hour program, and a student who
already has a private pilot license generally enrolls in the 399-clock-hour program. Students can
choose to enroll in additional add-on programs ranging in length from 22.5 to 115 clock hours.



1 The state licensing agency issued a March 25, 2002, letter approving the 785-c1ock-hour program; however, the 

program was not added to the school's state license until October 2002 in response to a request by FlightSafety 

officials. 

ED-OIGIA06-C0035 	                                                                       Page 4 of8


None of our 30 sample students was enrolled in the 785-clock-hour program approved by the
Department for Title IV eligibility. We reviewed the student files for 30 of the 74 PLUS loan
recipients for award year 2000-01, and found that most were enrolled in a combination ofthe
shorter flight training programs that the school offered. However, none of the 30 was enrolled in
a combination of courses that equaled 785 clock hours. Twenty-one of the 30 sampled students,
were enrolled in one or a combination of flight-training programs that totaled between 300 and
600 clock hours, and they received as much as $67,825 in PLUS loan funds. Seven students
were enrolled in courses with a combined total over 600 clock hours with the largest enrollment
being 749 clock hours. The remaining two students were enrolled in courses with a combined
total ofless than 200 clock hours, including one student enrolled in only a 122.5-clock-hour
program, an add-on program developed specially to meet his training needs. FlightSafety
determined that this student was eligible to receive Title IV aid and awarded $25,972 of PLUS
loans to him.

Title IV Participation Void

Because FlightSafety clustered several of its flight-training programs and inaccurately identified
the cluster as one 785-clock-hour program on its Application, the Department's designation of
FlightSafety's eligibility is void, under 34 C.F.R. § 600.40(c)(1), as of March 24, 1999, the date
that the latest designation was made. Inaccurately reporting the 785-clock-hour program on its
Application resulted in FlightSafety's being ineligible to disburse any Title IV aid.

For the purpose of our audit, we are questioning the Title IV aid disbursed for students at
FlightSafety on and after March 24, 1999, the date that the latest designation was made. Based
on the Department's National Student Loan Data System (NSLDS), FlightSafety received a total
of$5,666,525, net of refunds, in PLUS, Subsidized, and Unsubsidized FFEL Loan funds for
award years 1999-00,2000-01, and 2001-02.




We recommend that the Chief Operating Officer for Federal Student Aid­

1. 	 Verify that Title IV recipients are enrolled in the 785-clock-hour program and not the shorter,
     ineligible flight programs offered by FlightSafety prior to recertifying the school's
     application.

2. Require FlightSafety to repay to the lenders PLUS loan funds of$5,009,713 and Subsidized
   and Unsubsidized FFEL loan funds of$656,812 for award years 1999-00,2000-01, and
   2001-02, plus applicable interest.

3. Calculate and assess a liability for all Title IV funds disbursed for students at FlightSafety
   from March 24, 1999, through June 30, 1999, and after June 30,2002, plus applicable
   interest.
ED-OIGIA06-C0035                                                                         Page 5 of8




After we concluded our audit work at FlightSafety in September 2002, FlightSafety requested
approval for the 785-clock-hour program in an October 2, 2002, letter to the accrediting agency
stating that the school was restructuring its programs. The Institutional Development Manager at
the accrediting agency told us that she did not perform a site visit to the school prior to approving
the program on October 15,2002. Her decision was based solely on the additional
documentation provided by the school. We determined that the 785-clock-hour program did not
exist at the time of our audit, and the accrediting agency's subsequent approval of the program
does not change our audit finding or recommendations.




FlightSafety did not concur with our finding and recommendations. A copy of the letter from
FlightSafety is included as an Appendix to this report.

FlightSafety stated that it reported to the Department the 785-clock-hour program and itemized
the five courses that make up the program on eight applications submitted from 1966 to 2001,
the Department approved each of the applications, and the Department performed seven
compliance audits during this same timeframe. Flight Safety also stated that it submitted a re­
certification application in 2002 and received a site visit from the Department that same year that
was completed satisfactorily.

FlightSafety stated, "we respectfully object to the allegation that FlightSafety Application
contains inaccurate data." It also stated that our audit's statement "is based upon a review of
each course separately and not the Program in the aggregate." FlightSafety stated, "In order to
comply with FAA and ACCSCT [Accrediting Commission of Career Schools and Colleges of
Technology] requirements, FlightSafety has itemized each portion of the Program, which should
not lead to the result of having each course viewed as an independent program, particularly since
no student could secure employment having completed only one ofthe five courses."

However, FlightSafety acknowledged in its response that our audit "correctly notes that
FlightSafety's catalog does not describe one program that consists of785 hours." FlightSafety
included with its response a revised enrollment agreement that would require students to enroll in
all five courses contained within the 785-clock-hour program.




We have not changed our finding or recommendations. Though FlightSafety's response cites its
previous applications, program reviews, and compliance with FAA and accrediting agency
requirements, the information it provides does not contradict our finding that FlightSafety's 785­
ED-OIGIA06-C0035 	                                                                      Page 6 of8


clock-hour flight training program was not an eligible, approved program under the requirements
for participation in Title IV programs.

FlightSafety's revised enrollment agreement may help to ensure that its flight-training program is
an eligible program, if implemented. However, this revision appears to confirm our finding, by
indicating that students did not agree to enroll in the entire program on prior enrollment
agreements. FlightSafety's response also confirms our finding by verifying that the 785-clock­
hour program was not listed in its catalog.                                  .

In addition, FlightSafety did not provide any support for its statement that it reported to the
Department, in eight applications between 1966 and 2001, that the 785-clock-hour program was
made up of five courses. We reviewed two applications, dated February 1999 and November
2002, that FlightSafety submitted to the Department (neither of these applications was included
in the eight applications mentioned) and found that FlightSafety had not itemized the five
courses. If FlightSafety had historically provided an itemized listing of the five courses on its
applications to the Department, these two current applications should also contain that itemized
list.

We acknowledge that flight schools have an additional requirement of complying with FAA
requirements. However, FlightSafety must also comply with Title IV requirements, which allow
disbursements of Title IV aid only to students enrolled in eligible programs approved by the
Department. FlightSafety did not fulfill this responsibility when it reported to the Department
that it offered one 785-clock-hour program, but in reality, permitted students to enroll in one or a
combination of several programs that did not equal 785 clock hours. In fact, as we state in Audit
Results, not only did the combination of programs offered not equal 785 clock hours, none of our
30 sample students was enrolled in this 785-clock-hour program, and one student received Title
IV aid in 2000-01 for enrollment in a 122.5 clock hour program, which did not even meet the
minimum of 300 hours required to receive Title IV aid.




Our initial objective was to determine if FlightSafety had adequate controls to ensure PLUS
borrowers met the Title IV citizenship requirements. During the course of the audit, we
expanded our objective to also determine if Title IV aid was disbursed to students enrolled in
eligible programs. To achieve our objectives, we­

     • 	 Reviewed the citizenship and program eligibility requirements contained in the HEA and
         regulations.
     • 	 Reviewed FlightSafety's 2000 compliance and financial statement audit report and its
         2001 compliance audit report.
     • 	 Reviewed guidance on the citizenship requirements that the Department has provided to
         schools in the Federal Student Aid Handbook and in A Guide to 2000-2001 SARs and
         ISIRs.
ED-OIG/A06-C0035 	                                                                         Page 7 of8


    • 	 Interviewed the school's Financial Aid Administrator to determine the school's policies
        and procedures for documenting and determining the citizenship status of parents and
        students who received PLUS loans.
    • 	 Reviewed the school's written policies relating to verifying citizenship status.
    • 	 Interviewed the school's Administrative Manager regarding the Title IV eligibility of
        flight training programs offered by the school.
    • 	 Reviewed licensing certifications from the accrediting agency, the state agency, and the
        FAA to determine if a 785-clock-hour Aircraft Pilot and Navigator (Professional)
        program was approved by other agencies.
    • 	 Reviewed the school's 2002 catalog to determine what programs were offered.
    • 	 Reviewed the school's Application (revised 1112002), 1999 BCAR, and 1999 Program
        Participation Agreement to determine if offered programs were approved for Title IV
        eligibility.

We randomly selected and reviewed files for 30 PLUS loan recipients from a universe of74 total
PLUS loan student recipients at FlightSafety during the 2000-01 award year. To identify our
universe, we extracted data from the Department's Central Processing System (CPS) and
NSLDS and used the data to identify all 2000-01 PLUS loan student recipients and all
citizenship-related comments contained on these recipients' award year 2000-01 SARs and
ISIRs. During our file reviews, we determined if the school (1) appropriately documented the
citizenship status and, if applicable, resolved any citizenship-related comments or questions, and
(2) disbursed Title IV aid to students enrolled in eligible programs.

We relied on computer-processed data obtained from the CPS and NSLDS for background
information and to select a random sample of PLUS loan recipients for review. We performed
limited tests of the data to verify reliability by comparing the data to information obtained from
FlightSafetyofficials. Based on the results of these tests, we concluded that the computerized
data was sufficiently reliable to formulate conclusions associated with the objectives of our audit.

Our review of Title IV citizenship requirements covered the period July 1, 2000, through June
30, 2001. We expanded our scope for the review of Title IV program eligibility requirements to
cover July 1, 1998, through June 30, 2002. Audit work was performed at FlightSafety, Vero
Beach, Florida, during September 2002. We discussed our results with FlightSafety officials on
September 27,2002; we held an exit conference with FlightSafety officials on February 14,
2003; and we contacted FlightSafety officials on June 9,2003, to discuss subsequent revisions to
our proposed draft report. Our audit was conducted in accordance with generally accepted
government auditing standards appropriate to the scope described.




As part of our review, we assessed the system of management controls, policies, procedures, and
practices applicable to FlightSafety's administration of PLUS loans. Our assessment was
performed to determine whether FlightSafety had management controls established to ensure
PLUS borrowers met the Title IV citizenship requirements.
ED-OIGIA06-C0035                                                                       Page 8 of8



Because of inherent limitations, a study and evaluation made for the limited purposes described
above would not necessarily disclose all material weaknesses in management controls.
FlightSafety's management control structure was sufficient to ensure PLUS loan borrowers met
the required Title IV citizenship requirements. However, while reviewing student records to test
PLUS citizenship requirements, we identified discrepancies in the Title IV eligibility ofthe
school's Aircraft Pilot and Navigator (Professional) program. These discrepancies are discussed
in the AUDIT RESULTS section of this report.




If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following U.S. Department of
Education official, who will consider them before taking final Departmental action on this audit:

               Ms. Theresa S. Shaw, Chief Operating Officer 

               Federal Student Aid 

               U.S. Department of Education 

               Union Center Plaza, Rm. 112G 1 

               830 First Street, NE 

               Washington, DC 20202 


It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom ofInformation Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

If you have any questions or wish to discuss the contents of this report, please contact me, at
214-880-3031. Please refer to the control number in all correspondence related to this report.

                                      Sincerely,


                                      ~C'dIJ 

                                r     Sherri L. Demmel
                                      Regional Inspector General for Audit

 Enclosure
    Flight§~!!(!ty 

    Vero Beach Municipal Airport P.O. Box 2708 Vero Beach, FL 32961 (772) 564-7600 Fax; (772) 564-7660 

    Email: academy@flightsafety.com                                WEB: http:www.flightsafetyacademy.com 




                                                                                   15 August 2003


Ms. Sherri L. Demmel
Regional Inspector General for Audit
U.S. Department of Education
Office of Inspector General
1999 Bryan Street, Suite 2630
Dallas, Texas 75201-6817

Re: 	     Response to U.S. Department of Education Draft Audit Report
          Control No. ED-OIGIA06-C0035

Dear Ms. Demmel:

FlightSafety Academy is responding to the U.S. Dept. of Education's Draft Audit Report ("Draft
Audit"), which alleges that FlightSafety's Professional Pilot Program is ineligible for Title IV Student
Financial Assistance program.

FlightSafety Academy, a division of FlightSafety International Inc., was first approved to participate in
the Title IV Federal Loan Program on 0110111966. Since 1966, each application has reported
approximately 785 hours and has itemized the following five courses that make up the "Program":

          Private/Commercial/InstrumentlMulti Engine Pilot Course 

          Commercial Pilot Single Engine' Course 

          Flight Instructor Airplane Single Engine Course 

          Flight Instructor Instrument Course 

          Flight Instructor Multi Engine Course 


With each re-certification, the hours fluctuate slightly based upon Federal Aviation Administration
(FAA) modifications, but they have not changed significantly since the first submission in 1966. The
number of hours for the Program have always exceeded the 600 hour eligibility requirement for Title IV.

There have been seven re-applications since 1966 (in 1971,1976,1981,1986,1991,1996, and 2001)
followed by seven compliance audits performed by the Atlanta Office of the U.S. Department of
Education. All seven re-applications were approved by the U.S. Department of Education. Please be
assured that we take compliance with the U.S. Dept. of Education and with Title IV requirements
seriously. Given our successful audit record, we were unaware of'the concerns raised in the Draft Audit.




    the best safety device in any aircraft is   a well-trained pilot...
   FlightSafety
             IrdIImatIonII




Our most recent Program Participation Agreement has an effective approval date of 22 April 1999 and is
set to expire on the 31 March 2003, but continues on a month-to-month approval pending re­
certification. In 2002, FlightSafety Academy submitted our application for re-certification to the U.S.
Department of Education. On 28 January 2002, FlightSafety Academy had an on site visit from the U.S.
Department of Education Atlanta Case Management Division. Mr. Cannon Myers and Ms. Pat Gilbert
conducted that on site audit. On August 29,2002, Mr. Meyers advised that the site review was complete
satisfactorily.

The Draft Audit is the result of a further inspection, which was targeted at compliance with Title IV
citizenship requirements. Contrary to all previous audits, the Draft Audit alleges that FlightSafety's
Application contained inaccurate data (referring to the 785 clock hours reported in the Application).
The Audit's statement is based upon a review of each course separately and not the Program in the
aggregate. The Audit correctly notes that FlightSafety's catalog does not describe one program that
consists of 785 hours. While this has created confusion in the audit, it is the method required by both
the FAA and the Accrediting Commission of Career Schools and Colleges of Techhology ("ACCSCT").

As we tried to explain during the audit, the FAA requires FlightSafety to only enroll a student in one
course at a time, as the student must complete the "prerequisite" course before advancing to the next
course. The Draft Audit actually acknowledges this fact, "[p ]er FAA requirements, students can only
enroll in one program at a time and they must complete each program before they can sign the next
enrollment agreement." [See Page 3.] The Draft Audit also acknowledges that eligibility for Title IV
requires the school to "submit proof that the programs have been approved by the school's accrediting
agency, state-licensing agency, and in the case of flight schools, the FAA." [See Page 3.] Our offering of
the itemized courses versus the aggregate Program is consistent with FAA regulations.

Itemization of the Program components was also mandated by ACCSCT until 2002. Thus, our focus on
the components rather than the Program was again simply to comply with ACCSCT requirements. In
2002, however, the ACCSCT spoke with a number of flight schools about the professional pilot training
programs. As a result of these discussions, the ACCSCT realized that certificates received from the first
two segments of the Program would not provide the necessary pilot training so as to lead to
employment. The ACCSCT requires schools to have a graduate placement of72% or higher for each
program. Consequently, the ACCSCT has agreed to treat the Program as a whole, rather than
addressing each segment as a separate "program".

In order to comply with FAA and ACCSCT requirements, FlightSafety has itemized each portion of the
Program, which should not lead to the result of having each course viewed as an independent program,
particularly since no student could secure employment having completed only one of the five courses.
Thus, we respectfully object to the allegation that FlightSafety Application contains inaccurate data.



                                                2

    FlightSafety
              ~1IemIdIonIII




We do not, however, want to minimize the U.S. Dept. of Education's concerns about FlightSafety's
compliance with Title IV requirements. We have, therefore, revised the enrollment agreement signed by
the students to include all five courses contained within the Program. A copy of that revised agreement
is attached hereto as Exhibit A for your review. Please note the language in the first paragraph where
the student expresses his/her intent to enroll in each of the courses lists in Paragraph 5. Also, Paragraph
5 now itemizes the hours for each course, for a total of 782 hours, which is in excess of the 600 hour
eligibility requirement.

The Draft Audit also states that FlightSafety failed to submit completion and placement rates as required
by 34 C.F.R. 668.8(e)(2). [See Page 3]. FlightSafety believes that 34 C.F.R. 668.8(d)(I) governs the
Program and does not require the aforementioned certification by a public accountant which is necessary
for programs covered by 34 C.F.R. 668.8(3) only. Please see Page A-2 of FlightSafety's Eligibility and
Certification Approval Report, which categorizes the Program as "Non-Degree (600-899 hours)"
attached hereto as Exhibit B.

As previously indicated, this Program has been in effect for 37 years and the Atlanta Office of the U.S.
Department of Education has conducted seven audits. Based upon these successful audits, FlightSafety
believed that it was in compliance with Title IV requirements. In the event that it is determined that
FlightSafety's Program is ineligible, we respectfully request that FlightSafety be precluded from
participation and not be required to repay approximately $5,665,000 in loans. We believe that the
Government faces no financial risk on the loans based upon the following default rates.

       US Dept Ed:
       Cohort Default Rates:
       2002     0.0
       2001     0.0
       2000     0.0
       1999     0.0

Please do not hesitate to contact me if you require any additional information or documentation. We
respectfully request that you reconsider the action proposed in the Draft Audit.

Sincerely,



         . Skovgaard,
Di ctor/Center Manager

Encl (2)
Pb



                                                 3
FlightSafety Academy 	                                                                                                                                                Page 1 of 2
                           a division of 	                                                                                                              ENROLLMENT AGREEMENT
        FlightSafety International Inc.
2805 Airport Drive Vero Beach, Florida 32960 Tel: (S61) 564-7600 Fax: (561) 564-7610
1.     PROGRAM - FlightSafety Academy, operated by FlightSafety International Inc., herein referred to as FSI, agrees to provide--:._ _ _ _ _ _ _-:::::=_-::_::-..,.-...,..._
herein referred to as Student, intends to complete as outlined in Paragraph 5, during a period of A weeks commencing on                                           , 2002_, the Professional
Pilot Program, conSisting of training clock hours as listed in paragraph 5 of this agreement, to prepare Student to qualify for FAA Private Pilot, Commercial Pilot-single·engine and
multi-engine. instrument rating. Certified Flight Instructor, Certified Flight Instructor-Instrument and Multi.Engine Instructor pilot certificates/ratings with anticipated graduation date of
..,-_-:-:---:,--_ _ _ _ _ _ _ _.2003_ _. All flight training activity originates at the Municipal Airport, Vero Beach, Florida. FlightSafety reserves the right to reschedule
the training for any reason.

2.    PAYMENT - The undersigned Student and. if the Student is under 18 years of age, Parent, Guardian or Guarantor agrees to pay FSI for the training designated in paragraph 1
and consisting of the training clock hours and total cost set forth in paragraph 7. Payment shall be in advance of commencing training. Plus an additional $200.00 reserve on
account. A payment schedule may be obtained by dividing the agreement total by the length of training program in months. First and last month's payment is due on first day of
enrollment. The balance must be paid in installments every thirty days thereafter. It shall be the responsibility, jointly and severally, of the undersigned Student or Parent, Guardian,
and Guarantor to maintain a paid-in-advance status. If additional training is required, instruction will be provided at the hourly training rates set forth in paragraph 6.

3.    REFUND - If the Student is rejected by the school before training commences, the school will refund all monies paid. A Student may cancel without penalty or obligation within
three business days of signing an Enrollment Agreement. Students who have not visited the school facility prior to enrollment may also cancel without penalty or obligation within
three business days following a regularly scheduled orientation or following a tour of the school facilities. If Student cancels this agreement (except for any reason stated above)
before training commences, all monies paid minus a registration fee of 15 percent of the agreement price, but not more than $150.00, will be refunded within 30 days after
cancellation. If the Student wishes to cancel and withdraw anytime for any reason after commenCing training, or is unable to complete the program within the period specified above,
the school will refund to the depositor the amount of any advance payments less training and supplies, etc. actually received within 30 days of withdrawing. The refund (prorated at
established hourly rates) of the unused portion of tuition, fees, and other charges for a Student who withdraws or discontinues prior to completion will be determined by the last date
of actual attendance for all amounts paid which exceed the pro rata portion of the total charges that the length of the completed portion of the program bears to the total length of the
program. The termination of training or cancellation date for refund computation purposes shall be the last date of actual attendance by the student. In the event a Student is
granted a leave of absence. and advises the school that he/she will not be returning, the date of notice of intent to withdraw will be used in lieu of the last date of attendance. Credit
for books or supplies returned in unused and unmarked condition and with direct proof of purchase shall be granted.

4.   TERMINATION - FSI reserves the right to terminate this agreement for non payment, failure to comply with FSI rules of conduct and regulations or applicable federal, state,
and local aviation regulations or ordinances, failure to maintain full attendance, or failure to achieve minimum passing progress. (See separate Flight Training Evaluation and
Grading.) Student may cancel this agreement at any time, with or without cause for any reason. A Signed and dated written notification of cancellation is required.

5.   TRAINING· The following listing sets forth the flight training hours (Hobbs meter clock hours) and the ground training clock hours that constitute the program designated by
paragraph 1. The listing reflects either the minimum hours of training or experience required by law (Federal Aviation Regulations Part 141 or 61 as applicable) or projected minimum
hours needed to attain the proficiency which meets the pilot certification skill requirements of the FAR. The prices below are projected based on FAR requirements as outlined in this
paragraph. Any additiqnal hours required in order to achieve in~ividual proficiency would be at the published hourly rates set forth in paragraph 6 on the bottom of this form.
                          , FLYING HOURS 	                                                                                                                                        COSTS
         Aircraft Type            ARROW                               CADET                           ZLiN             SEMINOLE
                   Dual                  20.0 hrs                    73.0 hrs                      5.0 hrs                    80.0 hrs                                      $         36,099.00
                   Solo                                               61.0 hrs 	                                                                                            $          5,673.00
                              NON·FLYING HOURS
                              Flight Trainer (Frasca 142)                                         30.0 hrs                                                                  $              3,180.00
                              Academic Class                                                    301.0 hrs                                                                   $              6,020.00
                              Flight Briefing                                                   181.1 hrs                                                                   $               9960.50
                              Microsoft Lab                                                       27.0 hrs                                                                  $              11485.00
                              Spatial Disorientation Training                                      4.0 hrs                                                                  $                500.00
                              Aptitude Testing Fee                                                                                                                          $                100.00
                              Drug Testing Fee                                                                                                                              $                 60.00

                                                                                                                                       ESTIMATED FEES                       $          63,On50
                              Books and Supplies                                                                                                                            $           1,380.00
                              FAA Written Fees                                                                                                                              $             360.00
                              Uniforms                                                                                                                                      $             300.00
                              Reserve-on·Account                                                                                                                            $             200.00
                                                                                                                                   AGREEMENT TOTAL                          $          65,317.50

 NNUAL PERCENTAGE RATE                    FINANCE CHARGE                            AMOUNT FINANCED                           TOTAL OF PAYMENTS                        TOTAL SALES PRICE
 The cost 01 your credit as a yearly      The dollar amount the credit will         The amount of credit provided to          The amount you will have paid after      The total cost of your purchase on
 rate.                                    cost you.                                 you or on your behalf                     you have made all payments as            credit. Including your down payment
                                                                                                                              scheduled.                               01
 NIA%                                   $ N/A%                                      $ NIA                                     $ .65.317.50                              $ .66317.50
 YOUR PAYMENT SCHEDULE WILL BE:
     Number of payments              Amount 01 each payment                                                                   When paymenls are due
              12                             $ 5.443.13
  The ProfeSSional Pilot Program prOVides the training reqUired to obtain all the certificates of a Commercial Pilot and Flight Instructor. Single-engine. mufti' engine and Instrument.

 6. 	    HOURLY RATES· Following are the hourly training rates in effect with this agreement.
                    ACADEMY AIRCRAFT                     DUAL                  SOLO                                                                       GROUND TRAINING
                    Airplane                                                                                                  Academic Class                                          $ 20.00
                     Warrior Cadet                     $148.00               $ 93.00                                          Flight Briefing                                         $ 55.00
                     Arrow                               182.00               127.00
                     Zlin                               251.00                    N/A                                         NO SHOW POLICY • If Student fails to appear for a
                     Seminole                            255.00               200.00                                          scheduled flight training period without canceling at
                                                                                                                              least two hours in advance, Student shall be assessed a
                           FLIGHT TRAINER                            DUAL                                                     $50.00 fee for each hour of flight time lost.
                           Frasca 142                               $106.00                     N/A
                                                                                                                                                                                                             16
FlightSafety Academy 	                                                                                                                             Page 2 of2
                        a division of                                                                                                         ENROLLMENT AGREEMENT
     FlightSafety International Inc.
ALL PRICES FOR PROGRAMS ARE AS PRINTED HEREIN. THERE ARE NO CARRYING CHARGES, INTEREST
CHARGES, OR SERVICE CHARGES CONNECTED OR CHARGED WITH ANY OF THESE PROGRAMS. CONTRACTS
ARE NOT SOLD TO A THIRD PARTY.
7.    OTHER COSTS - Other costs which are normally required or associated with the training program which Student mayor may not purchase from the school are listed below.
IMPORTANT NOTE: The projected cosls for examiner services and aircraft rental for FAA tests needed to gain pilot certification have been included in paragraph 5. Although not a
part of the minimum instructional program, the following costs are included to give an indication of the anticipated overall cost.
                       a. 	FSI dormitory - Varies from $17.00 - $27.00 per day according to accommodation. See separate Dormitory Agreement for terms and conditions of
                           occupancy. Student is not required to reside in the FSI dormitory.
                       b. Meals, FSI offers meals for students or employees at our cafeteria style restaurant on campus, or from independent restaurant facilities off campus.
                           Costs will vary accordingly.
                       c. 	FAA Examiner - When the program is completed and after obtaining instructor endorsements required by the FAR, Student will be eligible for the
                           applicable FAA examination(s). FAA examiners normally receive $175 to $400 for flight examinations for FAA pilot certificates.
                       d. Aircraft Rental - Student may rent an aircraft from FSI for the purpose of taking the FAA flight examination(s). The rental shall be at the hourly solo rate.

8.      SCHEDULE - Academic classes are normally scheduled between the hours of 0700 to 1900, Monday through Friday. Academic instruction is provided prior to commencing
flight training. A schedule of planned class starting dates is published for the calendar year. A schedule of class hours, subjects, and training room assignments is posted weekly.
Flight training, which by nature is individual instruction, is scheduled daily during daylight hours. As required, night flights and instrument instructional flights are conducted during the
evening hours to be completed prior to midnight. The flight schedule is posted daily. The Student who has completed an academic program and, if taken within 10 working days of
the last class, subsequently failed the applicable FAA written examination will be offered one (1) additional opportunity to attend one regularly scheduled academic program free of
charge during a period of one (1) year commencing on the date of this agreement. The availability of FSI aircraft is limited due to reasonable Student demand, routine repair and
maintenance, and periodic inspections.

9.    GRADUATION - A pilot Student may qualify for pilot certification under two provisions of Federal Aviation Regulations, FAR Parts 61 or 141. When Student has completed all
of the training prescribed herein or has successfully fulfilled all prerequiSites and requirements of the pertinent FAR, Student will be awarded a program completion certificate by
FlightSafety international.

10. EMPLOYMENTIPLACEMENT - FSI agrees to use its best efforts to prepare Student to qualify for the certificate/rating as speCified in paragraph 1 above; however, FSI does
not warrant or guarantee the Student will obtain such certificate or rating nor can FSI guarantee job placement. Placement assistance consisting of advice and counseling regarding
job opportunities, career guidance, and employer directory assistance information is offered to graduates.

11. HOLD HARMLESS - The undersigned Student, guardian and/or guarantor, jointly and severally, agrees to indemnity and hold harmless FSI, its agents, servants and
employees, from and against any and all claims, demands, suits, actions, causes of action, liabilities and judgments (collectively, 'Claims") which may arise out of or result from the
training provided hereunder (a) in all respects as to Claims arising after completion of such training and (b) solely with respect to negligence of the Student as to Claims arising
during the term of such training.

While the sole occupant of an FSI aircraft, Student assumes responsibility in all cases where collision damage is incurred during any ground taxi operation in which Student's aircraft
is the only moving vehiCle and not being towed by a FlightSafety International authorized towing tractor. Furthermore, Student agrees to pay for all resulting damages based on the
presentation of an invoice from an authorized aircraft repair station as designated by FSI. Student authorizes FSI to apply any funds on account with FSI as payment for damages
described above. Nothing in this statement shall limit the Student's liability for any other damages not described above.

                                        CONSUMER'S RIGHT TO CANCEL
     YOU MAY CANCEL THIS CONTRACT WITHOUT ANY PENALTY OR OBLIGATION WITHIN 3 BUSINESS DAYS
     FROM THE DATE OF YOUR SIGNATURE BELOW. ALL MONIES PAID WILL BE REFUNDED. YOU MAY ALSO
     CANCEL THIS CONTRACT IF UPON DOCTOR'S ORDER YOU CANNOT PHYSICALLY RECEIVE THE SERVICES,
     OR YOU MAY CANCEL THE CONTRACT IF THE SERVICES CEASE TO BE OFFERED AS STATED IN THE
     CONTRACT. IF YOU CANCEL THIS CONTRACT FOR EITHER OF THESE REASONS, FLiGHTSAFETY
     INTERNATIONAL INC. MAY KEEP ONLY A PORTION OF THE TUITION OR CONTRACT PRICE. YOU MAY NOTIFY
     FLiGHTSAFETY OF YOUR INTENT TO CANCEL BY NOTICE TO:
                                      FlightSafety International Vero Beach Municipal Airport, PO Box 2708, Vero Beach, Florida 32961·2708

     THIS CONTRACT IS FOR FUTURE CONSUMER SERVICES AND PUTS ALL ASSIGNEES ON NOTICE OF THE
     CONSUMER'S RIGHT TO CANCEL UNDER FLORIDA'S FAIR TRADE PRACTICES RULE.

 Student Name_ _ _ _ _ _-:-=:-_....",..,.....,_ _ _ _ _ __                               I HAVE READ AND RECEIVED A COPY OF THIS AGREEMENT AND ACCEPT 

                                      (Please Print)                                     AND AGREE TO ITS PROVISIONS. THIS AGREEMENT CONSTITUTES A 

                                                                                         BINDING CONTRACT UPON ACCEPTANCE AT THE SCHOOL. 

 Address_ _ _ _ _ _ _ _::-,-....,-_ _ _ _ _ _ _ __ 

                                      Street

                                                                                         -:-::-:'-:--::--::::--._:--_ _ _ _ _ _ _ _ _ _Oate_ _ _ __ 

      City                            State/Country                     Zip              (Student's Signature) 

 Telephone_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __
                                                                                         ~-:----:--=-...,.......".....=--:--_=_:__".____,--.,._..,:Oate,-~-__..,.­

                                                                                          (Signature of Student's Parent, Guardian, or guarantor- if under 18 years of age)

 Date of Birth_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __
                                                                                          .,..,...-.-...,..........,.-:::--_-:-,.,---:-::::-,-:-:=-:-:--:----::_.,...Date,-,--...,._ __
                                                                                          (Authorized Representative of FlightSafety International - Signature)

                                                                         FlightSafety is an Equal Opportunity School
                             INSTITUTIONAL PARTICIPATION & OVERSIGHT SERVICE

                                ELIGIBILITYAND CERTIFICATION APPROVAL REPORT
DATE: 05/1111999                                                                                                   PAGE A - 2


INSTITUTION NAME         Flight Safety Academy                                                         ELIGIBLE: Y
           OPEID         008483 00       .                                               INITIAL APPROVAL DATE : 11125/1968
                                                                               WAIVER(S):        ****   End Of Waivers   ***
                 ACADEMIC CALENDAR                     Clock Hours 

HIGHEST EDUCATIONAL PROGRAM OFFERED                    Non-Degree (600-899 hours) 


 THE INSTITUTION IS ELIGIBLE TO APPLY FOR PARTICIPATION IN THE FOLLOWING PROGRAMS AUTHORIZED UNDER THE 

 HIGHER EDUCATION ACT OF 1965, AS AMENDED:

          TITLE I    N         TITLE IV       Y          TITLE VII : N              TITLEX: N           TITLE XIII : N
         TITLE II    N          TITLE V       N          TITLE VIII : N            TITLEXI : N          TITLEXIV : N
        TITLE III    N         TITLE VI       N            TITLE IX: N            TITLEXII : N          TITLEXV: N

                           TITLE IV STUDENT FINANCIAL ASSISTANCE PROGRAMS
                                                       PROGRAM PARTICIPATION AGREEMENT
                 CERTIFIED    Certified                  EFFECTIVE DATE 04i29/1999
      LOAN DEFERMENT ONLY     N                        EXPIRATION DATE: 03/3112003
 PROGRAM              CERTIFIED APPROVAL DATE PROGRAM                   CERTIFIED APPROVAL DATE
 FWS Com Serv                     N                                  FWS Priv Sec Empl            N
 FWS Job Loc Dev                  N                                  FFEL Staff                   Y            11125/1968
 FFEL Staff Unsub                 Y              11125/1968          FFELPLUS                     Y            11/25/1968
 FPerkins                         N                                  FSEOG                        N
 FPell                            N                                  FDSLP Staff                  Y            11125/1968
 FDSLP Staff Unsub                Y              11125/1968          FDSLPPLUS                    Y            11125/1968
                                       ***   End Of Section   ****


          =                                                                                                                     ­
